<html>
<title> - FIREARMS CORRECTIONS AND IMPROVEMENTS ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       FIREARMS CORRECTIONS AND 
                            IMPROVEMENTS ACT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 5005

                               __________

                             MARCH 28, 2006

                               __________

                           Serial No. 109-113

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-766                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                     Michael Volkov, Chief Counsel

                          David Brink, Counsel

                        Caroline Lynch, Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 28, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas.................................................     3

                               WITNESSES

The Honorable Michael R. Bloomberg, Mayor, City of New York
  Oral Testimony.................................................     4
  Prepared Statement.............................................     8
Mr. Richard E. Gardiner, Attorney at Law, Fairfax, Virginia          30
Ms. Audrey Stucko, Deputy Assistant Director, Enforcement 
  Programs and Services, Bureau of Alcohol, Tobacco, Firearms, 
  and Explosives (BATFE)                                             32

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement by the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    40
Prepared Statement by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas.............    41
Letter from Antonio Villaraigosa, Mayor of the City of Los 
  Angeles, to the Honorable Howard Coble and the Honorable Robert 
  C. Scott.......................................................    45
Letter from Richard Daley, Mayor of the City of Chicago, to the 
  Honorable Howard Coble.........................................    47
Letter from Richard Daley, Mayor of the City of Chicago, to the 
  Honorable Robert C. Scott......................................    48
Letter from Thomas Menino, Mayor of the City of Boston, to the 
  Honorable Howard Coble and the Honorable Robert C. Scott.......    49
Letter from Tom Barrett, Mayor of the City of Milwaukee, to the 
  Honorable F. James Sensenbrenner, Jr., Chairman, Committee on 
  the Judiciary, and the Honorable John Conyers, Jr., Ranking 
  Member, Committee on the Judiciary.............................    51
Letter from Gregory Nickels, Mayor of the City of Seattle, to the 
  Honorable F. James Sensenbrenner, Jr...........................    53
Letter from Gregory Nickels, Mayor of the City of Seattle, to the 
  Honorable John Conyers, Jr.....................................    55
Letter from the Fair Trade Group to the Honorable Howard Coble...    57
Letter from the National Firearms Act Trade & Collectors 
  Association to the Honorable Howard Coble......................    58
Letter from the Brady Center to Prevent Gun Violence to the 
  Honorable Howard Coble and the Honorable Robert C. Scott.......    60
Letter from Crime Gun Solutions LLC to the Honorable Lamar Smith, 
  Chairman of the Subcommittee on Courts, the Internet, and 
  Intellectual Property..........................................    68
Declaration of Service via JusticeLink In re Firearm Case........    70
Declaration of Robert A. Rickler in support of plaintiffs' 
  opposition to defendant manufacturers' motion for summary 
  judgement in  Firearm Case.....................................    71

 
               FIREARMS CORRECTIONS AND IMPROVEMENTS ACT

                              ----------                              


                        TUESDAY, MARCH 28, 2006

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:55 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Howard 
Coble (Chairman of the Subcommittee) presiding.
    Mr. Coble. The Subcommittee will come to order.
    Mr. Gardiner and Ms. Stucko, we appreciate you two for 
remaining for the second panel. And we welcome the mayor, His 
Honor. I want to welcome you all to the second panel that has 
been called to participate in a legislative hearing on H.R. 
5005, the ``Firearms Corrections and Improvements Act.''
    H.R. 5005 implements a number of common-sense provisions 
which clarify, update, and eliminate obsolete language in the 
gun laws. Recently, Congress passed and the President signed 
the Protection of Lawful Commerce in Arms Act, which restricted 
frivolous gun liability suits designed to target the gun 
industry. H.R. 5005 is consistent with that act and implements 
some less controversial issues, many of which have already been 
enacted as part of the appropriations process.
    H.R. 5005 enhances the country's national security efforts 
by eliminating current barriers which prevent private 
contractors who provide national security from training 
personnel in the use of firearms, preventing manufacturers from 
fulfilling Government contracts by restricting access to 
certain firearms and ammunitions for testing purposes.
    H.R. 5005 also eliminates the current double reporting 
requirement which requires that the same information be 
provided to the Bureau of Alcohol, Tobacco, Firearms, and 
Explosives and to the State or local law enforcement when an 
individual purchases more than one firearm within 5 days. 
Repealing the duplicative multiple sales reporting requirements 
serves the dual purposes of protecting individuals' privacy 
rights and of relieving State and/or local law enforcement 
agencies from the burden and cost of having to comply with the 
Federal regulations.
    ATF is the national agency responsible for enforcing gun 
laws and has a proven track record in effectively maintaining 
duplicative sales data. This provision recognizes ATF's role 
and eliminates the requirements that hundreds of different 
local law enforcement agencies, all of which vary in size, 
resources, and expertise, maintain this data.
    Finally, the bill includes a provision to limit the use of 
information contained in ATF's Firearm Trace database and 
protects individual privacy rights without hindering the 
criminal investigation and prosecution of gun violations. The 
Firearm Trace system was not established to provide research 
data for civil litigation. It was established to solve crimes. 
H.R. 5005 provides the necessary safeguards from the disclosure 
of private individual information related to gun purchases--
informants, suspects, investigating officers, and Federal 
firearm licensees, which are required to enforce effectively 
the gun laws.
    I am told that the Justice Department will propose 
modifications to a few of these provisions, and we look forward 
to working with the Justice Department regarding these changes. 
I also appreciate that some of today's witnesses do not 
wholeheartedly support the language in H.R. 5005, and we as 
well look forward to hearing and considering those views.
    Prior to introducing our panel of witnesses and the mayor, 
I want to recognize the distinguished gentleman from Virginia, 
Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, I notice we have the patron of the bill, a 
Member of the Committee with us, and I'd ask unanimous consent 
that he be able to participate fully in the hearing.
    Mr. Coble. Without objection. And I apologize to the 
distinguished gentleman from Texas. I did not see him come in. 
That's a good suggestion, Mr. Scott. And you're welcome, 
indeed, Mr. Smith.
    Mr. Scott. Thank you, Mr. Chairman.
    I'm pleased to join in convening the hearing on H.R. 5005, 
the ``Firearms Corrections and Improvements Act.'' Some of the 
provisions of this bill are non-controversial. Others, clearly 
are not uncontroversial, as we will hear from our witnesses 
today.
    I'm concerned with certain provisions, in particular the 
provisions eliminating the requirement for reporting multiple 
sales to State and local governments. Virginia, as I understand 
other jurisdictions, has a one-gun-a-month restriction. And 
this information is clearly necessary to enforce this law.
    So I will clearly want to know what the proposed 
legislative restriction--what effect it may have on the one-
gun-a-month law we have in Virginia. I'm concerned with the 
access to gun tracing and other information restricted by this 
legislation. I see no reason why we should shield individuals 
or companies from the responsibility for the results of their 
negligent acts, including those convicted of crimes directly 
relating to the injuries or deaths that are subject to 
negligence claims.
    Mr. Chairman, I look forward to the testimony of our 
witnesses on the impact of this legislation. I look forward to 
working with you to ensure that we do not have undue 
restrictions on the abilities of our States and localities to 
effectively enforce their laws and on the ability of injured 
parties to recover from negligent acts or individuals or 
companies in their use of firearms.
    I yield back.
    Mr. Coble. I thank the gentleman. And as Mr. Scott 
appropriately indicated, the primary author of the bill is with 
us. Mr. Smith, did you want to make a brief opening statement?
    Mr. Smith. Thank you, Mr. Chairman, I will, and it will be 
brief.
    Mainly, I want to thank you for having this hearing on this 
particular piece of legislation. As you have mentioned and has 
the Ranking Member, Mr. Scott, there are certain tweaks that 
may need to be made to this legislation. But we have run it by 
the Department of Justice, and we believe that overall it is a 
good piece of legislation and will address a lot of concerns 
that need to be addressed.
    So I am looking forward to this hearing. And I want to 
thank you for including me, and I want to thank Mr. Scott for 
his sentiments expressed a while ago as well.
    I yield back the balance of my time.
    Mr. Coble. I thank the gentleman.
    The distinguished gentleman from New York, Mr. Weiner, has 
requested permission to introduce another distinguished 
gentleman from New York--His Honor. Mr. Weiner?
    Mr. Weiner. Thank you very much, Mr. Coble and Mr. Scott. I 
appreciate your obliging me. It is my great honor to introduce 
to the Committee, and to those who are viewing, the mayor of 
the city of New York, Michael R. Bloomberg.
    Many of you know him as perhaps the single most successful 
businessman today, but if not, one of the top several in 
American history. But for those of us who have gotten to know 
him in New York, we also are familiar with his philanthropy and 
his charitable work.
    When Tom Ridge, the former Director of Homeland Security, 
said that homeland security begins in our hometown, no one took 
it more seriously than Michael Bloomberg, who had just been 
sworn in shortly after September 11. With Policy Commissioner 
Kelly and about 36,000 police officers, including an anti-
terrorism unit that extends, quite literally, beyond the ocean 
into other countries we have done a remarkable job in the city 
of New York of sometimes having to do without.
    But there are some additional measures that the city of New 
York, and other localities, that so many of my colleagues here 
in Congress say that we should let the localities do what they 
do best. And in the case of the city of New York, thankfully, 
it's preventing and cracking down on crime.
    But we can't do it entirely alone and we can't do it with 
major obstacles being put in the way with legislation that 
doesn't add to the enforcement actions but, frankly, makes them 
more and more and increasingly difficult.
    You know, we in the city of New York have come to see Mayor 
Bloomberg as someone who proceeds with issues based on merit, 
not based on politics. Although I can say I have developed some 
appreciation for his political skills the hard way, I can say 
that this is an issue that, frankly, should and ought to 
transcend politics.
    I learned from you, Mr. Coble, and others in this House 
that guns carry a certain cultural meaning in places around the 
country that perhaps I can't understand, having grown up in 
Brooklyn. But I think all of us recognize, particularly now 
after September 11th, that there are going to be tools we're 
going to need to be able to give to local law enforcement to be 
able to do their job. And Mayor Bloomberg doesn't come here 
asking for things frivolously, but I think that his testimony 
today speaks for itself. And I think that we should give it the 
weight that it deserves. And we should be mindful of the fact 
that he is testifying not only on behalf of himself, but based 
on some of the letters we've gotten, based on mayors and 
executives all around this country in administrations both 
Democrat and Republican.
    And I also want to express my gratitude to you, Mr. 
Chairman, for your flexibility in understanding the schedule of 
the mayor of the city of New York.
    And with that, I'd like to ask unanimous consent that upon 
Mr. Bloomberg's testimony and our asking him questions that he 
be allowed to return to the city of New York. I have enough 
trouble operating in his shadow in New York. I'm more than 
eager for him to get back on the job in the city of New York. 
So I would ask for unanimous consent.
    Mr. Coble. Without objection. None heard.
    Your Honor, it's good to have you with us. Mayor, we 
operate under the 5-minute rule, but you won't be keelhauled if 
you violate that rule. But if you can stay on or about 5 
minutes, and your warning light will be that red light that 
will illuminate into your eye. The amber light tells you that 
you have a minute to go.
    Now, Mr. Mayor, I am an alumnus of the rural South, and you 
and I probably won't agree on gun legislation. But we can 
disagree agreeably, as Mr. Scott and I oftentimes do. But when 
I come to your town, Your Honor, that country boy come to town. 
New York City overwhelms me, but it's good to have the mayor of 
America's largest city with us. And you may be heard, Mr. 
Mayor.
    And, Mr. Weiner, I thank you for the introduction.

TESTIMONY OF THE HONORABLE MICHAEL R. BLOOMBERG, MAYOR, CITY OF 
                            NEW YORK

    Mr. Bloomberg. Mr. Chairman, thank you. And we'd love to 
have you in New York City. Come and spend a lot of money. We 
need the sales tax revenues.
    Thank you and, Ranking Member Scott, Mr. Weiner, thank you 
for the kind introduction, Mr. Feeney and Mr. Smith, thank you 
for the opportunity to appear before you and give testimony on 
H.R. 5005, what I would call the misnamed Firearms Corrections 
and Improvements Act. My name is Michael Bloomberg, for the 
record, and I am mayor of the city of New York.
    Let me start by being very clear that I am not here today 
to engage in an ideological debate. H.R. 5005 has nothing to do 
with the second amendment and the right to bear arms, but it 
has everything to do with illegal guns and the dangers they 
pose to our police officers and citizens. And that's why I'm 
here, because the bill this Subcommittee is considering would 
explicitly impinge on our ability to fight illegal gun 
trafficking, and it would result in the shooting deaths of 
innocent people. And I urge you, in the strongest possible 
terms, to reject it. And I am submitting letters from mayors 
around the Nation, as well as from the former Chief of the 
ATF's Crime Gun Analysis Bench who join me in opposing this 
legislation.
    Why do New Yorkers care about illegal gun sales in other 
States? It's true that New York is the safest big city in 
America. And I am very proud that we have been able to reduce 
major crime by nearly 25 percent in the last 5 years. But the 
harsh reality is that far too many people continue to be killed 
with illegal guns. And nearly all of those guns are purchased 
outside of New York State. Last year, illegal guns were used to 
take the lives of more than 300 people in our city.
    To protect all New Yorkers, we must not only root out and 
punish those who possess, use, and sell illegal weapons--and we 
are doing that more effectively than ever--but we must also do 
everything in our power to keep guns out of the hands of those 
criminals in the first place. This requires us to look beyond 
our borders because 82 percent of the guns used in crimes in 
New York City were purchased outside of New York State.
    H.R. 5005 would make it immeasurably harder to stop the 
flow of illegal guns across our borders and into the hands of 
criminals by offering extraordinary protection to gun dealers 
who knowingly sell guns to criminals and depriving local 
governments and their law enforcement agencies of the tools 
they need to hold these dealers accountable.
    Specifically, these obstacles would take the form of severe 
restrictions on our use of ATF trace data, which is perhaps the 
most effective tool we have in combatting illegal gun 
trafficking. Without question, the vast majority of gun dealers 
are law-abiding businesses, and we have no quarrel with them. 
Most dealers follow the law and take every precaution to ensure 
that their products do not fall into the hands of criminals.
    But there's a very small group of bad apples--about 1 
percent of all gun dealers who account for almost 60 percent of 
all crime guns nationwide. That's an astounding statistic. 
Imagine if 60 percent of all crime in a city were committed in 
one block. Would you pass a law that effectively prevented the 
police department from using every tool at its disposal to 
crack down on that block? Of course not. Yet H.R. 5005 would 
effectively prevent cities, like ours, from holding the 1 
percent of bad gun dealers fully accountable for their actions. 
And that makes no sense whatsoever.
    When rogue gun dealers break the law and their guns cause 
injury or death to innocent people, they should be compelled to 
answer for their conduct in a court of law, just as any other 
law breaker would. And when they hold licenses issued by State 
and local authorities, they should be called to account in 
administrative proceedings to revoke their licenses.
    This is what happens to businesses in other industries when 
they act irresponsibly. Think about a tavern that sells alcohol 
to teenagers and as a result loses its license. Why should an 
irresponsible firearms dealer, who possesses a far greater 
threat to the overall safety of our citizens, be given special 
protection from State and local authorities?
    In non-criminal proceedings, to revoke a rogue gun dealers' 
license trace data is the single most powerful way to 
demonstrate unmistakable patterns of illegal conduct. It's 
pretty simple. Gun dealers with inordinately large numbers of 
traces to crime guns are gun dealers who make it a practice to 
sell to straw purchasers. Yet H.R. 5005 would ensure that this 
devastating evidence never sees the light of day.
    Studies show that when dealers are subject to enforcement 
efforts, or even if they suspect enforcement efforts, the 
number of crime guns later traced to these dealers falls off 
sharply. Yet by forbidding the use of trace data in civil and 
administrative proceedings, H.R. 5005 would make it far more 
difficult to bring civil suits against rogue gun dealers and 
far more difficult to bring administrative actions to revoke 
their licenses.
    And my question to you is why. Why is this in the best 
interest of the American people? Why is this in the best 
interest of your constituents? Why would Congress protect 
irresponsible gun dealers who help criminals get guns? Why is 
it good public policy to make cities fight the war against gun 
violence with one hand tied behind their back? Is it to benefit 
special interest groups or the one in a million person who was 
prosecuted for a purchase that is negligent, but not criminal? 
Is it for those few ideologues and extraordinary, unusual cases 
that you are willing to facilitate the shooting deaths of 
thousands of innocent Americans across this country every year?
    I can't believe so. Nor can I take those answers back to 
the parents of the slain members of the New York City Police 
Department, including the families of Detectives James Nemorin 
and Rodney Andrews, who were murdered 3 years ago this month by 
one of the hundreds--in one of the hundreds of buy-and-busts 
that the NYPD carries out every year to take illegal guns off 
our streets.
    Finally, of the other retrograde provisions in H.R. 5005, 
the worst of all is the provision that would actually treat 
police officers like criminals. Under the terms of H.R. 5005, a 
detective who shares ATF trace information with another State 
government for use in a license revocation hearing against a 
rogue dealer would be committing a Federal felony, a crime 
punishable by up to 5 years in prison. In other words, if an 
NYPD detective talks to a New Jersey State Trooper about a gun 
dealer problem, that detective could go to jail.
    I would not expect that I would need to remind Congress of 
the horrific consequences that this country, particularly New 
York City, suffered as a result of the Federal Government's 
failure to share information among law enforcement agencies and 
to work together to connect the dots in order to establish 
patterns of criminality and threats of danger.
    Yet, incredibly, instead of demanding that our law 
enforcement agencies share information, Congress is considering 
making it a crime, as absurd as that sounds. This bill would 
not only erect new barriers to information, it could send 
police officers to prison in order to prevent them from holding 
the worst gun dealers accountable for their potentially 
dangerous actions.
    How in the world can you explain that to the public?
    Members of the Subcommittee, I have been to too many police 
officers' funerals to believe that this bill actually has a 
prayer's chance in hell. But if it does pass, the next time an 
officer is attacked by an illegal gun--and I say next time 
because until Congress gets serious about illegal guns, more 
police officers and many more citizens will be murdered. There 
can be no denying that those who vote for this bill will bear 
some of the responsibility. That may sound harsh to you, but 
I'm not going to sugarcoat my words when discussing a bill that 
coddles criminals and endangers police officers and citizens, 
not only in New York City but across this Nation.
    On behalf of the members of the NYPD and their families and 
all New Yorkers, I am urging you in the strongest possible 
terms to reject this God-awful piece of legislation.
    Thank you very much. And I'd be happy to answer your 
questions.
    [The prepared statement of Mr. Bloomberg follows:]

        Prepared Statement of the Honorable Michael R. Bloomberg

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Thank you, Your Honor, and the Chair wants to 
express thanks, as well, to Ms. Stucko and Mr. Gardiner, for 
having agreed to permit you to go first, Mr. Mayor. And then we 
will examine you. And then you're on a short leash. You need to 
go back to the Big Apple. And then we'll talk to Ms. Stucko and 
Mr. Gardiner.
    Mr. Bloomberg. Congressman Weiner wants me out of 
Washington as soon as possible, and I'd be happy to 
accommodate. [Laughter.]
    Mr. Coble. We need to accommodate Anthony.
    Mr. Mayor, what would you say if someone said to you, as 
I'm going to say to you, that for decades New York had tough, 
tough gun control laws and crime continued to run rampant. And 
then when the New York police were allowed to do their jobs and 
the courts more effectively did theirs, the crime rate reduced. 
How would you respond to that?
    Mr. Bloomberg. We've brought the number of murders per year 
down from 2,200 a year down to 530 last year. But it's still 
530 too many, and roughly 300 of those were committed--the 
murders were committed with guns. We have to continue to do our 
job.
    And you're 100 percent right. We've done a good job and 
will continue to do it. But this is just one more tool in 
helping us get guns off the streets. Guns don't belong on the 
streets of big cities. And we recognize that in the suburbs and 
in other parts of the country, different laws may very well be 
appropriate. But in the major cities, I don't think there is a 
mayor that wouldn't stand next to me and say this is a 
significant problem. And it is a national problem because of 
the ease of carrying guns across the border from one State to 
another.
    Mr. Coble. But, Your Honor, much of the reduction in crime 
occurred after some of the gun laws were rolled back.
    Mr. Bloomberg. Gun laws have something to do with it, in 
some cases don't. But that doesn't mean that we shouldn't be 
able to conduct an investigation. It's 1 percent of the dealers 
that sell 60 percent of the guns used in crime.
    I mean, if it was any other industry, any other kind of 
crime, the public would be screaming. And I trust all of you 
would be leading the charge to help the cities continue the 
reduction in crime that they have been able to accomplish.
    Mr. Coble. Thank you, Your Honor.
    Now, I want to recognize Ms. Stucko and Mr. Gardiner if you 
all have any comment to make prior to the mayor's departure. 
Mr. Gardiner?
    Mr. Gardiner. No.
    Mr. Coble. Ms. Stucko?
    [No response.]
    Mr. Coble. Well, I have beat the red light. The 
distinguished gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you. And, Mr. Mayor, you've noticed your 
colleague from the New York area, Ms. McCarthy, who has, as you 
know, a significant interest in gun legislation.
    Mr. Bloomberg. She has mentioned it to me on more than one 
occasion.
    Mr. Scott. Well, good for her. Good for her.
    What effect would this--do you have one-gun-a-month 
legislation in New York?
    Mr. Bloomberg. We have reasonably strict gun regulations in 
New York in terms of background checks and how much you can 
buy.
    The big problem that we have are not people that are trying 
to buy guns legally. It is people that go out of State, buy a 
dozen guns, come back into the State and sell them to people 
that they know are criminals. And it's something that we can't 
control without having information, and we're going to use 
every tool in our quiver. We use the criminal law. We use the 
civil law. We use licensing requirements. We do that all the 
time to try to stop all of the kinds of behavior that really is 
so damaging to the young people of our city. We are losing our 
citizens to guns every day.
    Mr. Scott. Now, a major portion of this is a restriction on 
what you can do with the documentation.
    How would it help law enforcement to be able to have access 
to this information?
    Mr. Bloomberg. What you try to do is you try to find out 
when a crime has been committed where the gun that the criminal 
had in his possession came from. You go to the manufacturer 
because you know the type of gun. You can look at the gun and 
know who manufactured it. That manufacturer can look and see 
what dealer he sold it to.
    If one dealer has tens or hundreds of crime-used guns that 
he handled, that's the dealer you want to go after. This is not 
something that we're going after the manufacturers.
    This legislation is bad for the manufacturers. In the end, 
the manufacturers have every interest in keeping guns out of 
the hands of criminals. In the end, everybody that wants to 
have the right to bear arms should have exactly the same 
interest. And this is a very important tool--having 
information. I know of no other place where we would 
deliberately prevent law enforcement officers from using the 
information. There's the old joke of follow the money. It's 
follow the information in all criminal investigations.
    Mr. Scott. I can see how we would perhaps want to limit 
access, public access to this information.
    Mr. Bloomberg. Nobody's arguing about that. We're not 
taking information and making it available to everybody. This 
is the fact an NYPD detective can't talk to a New Jersey State 
Trooper.
    Mr. Scott. Now, you've indicated that some gun dealers, 1 
percent of the gun dealers have an overwhelming portion. Are 
these 60 percent of gun crimes, are these illegal purchases or 
legal purchases?
    Mr. Bloomberg. We're talking here only about illegal 
purchases. That's where we want to find out who is knowingly 
selling guns to criminals. Unfortunately, crimes are committed 
by people who have a gun and have a license for that gun and 
bought it in an appropriate manner. But you know who that is.
    That's not what we're talking about here. This is purely a 
case where you have a handful of unscrupulous dealers, not 
manufacturers, who knowingly sell to people who they know will 
either use these guns in crime or will resell them to people 
who are buying them for only one purpose, and that's to go out 
and to commit crime.
    Mr. Scott. Thank you.
    Mr. Coble. I thank the gentleman.
    The gentleman, distinguished gentleman from Florida, Mr. 
Feeney.
    Mr. Feeney. Thank you, Mayor. It's an honor to have you 
here today. We appreciate the job you do in America's most 
famous city. And thanks for being here.
    Also, you know, I want to congratulate you. I mean, the 
truth of the matter is that for many decades, as long as I have 
been watching New York politics and national politics, mayors 
of New York have been insisting that in order to get control of 
the crime problem in New York, they need to have national anti-
gun legislation. And, in fact, it turns out that Mayor Giuliani 
and your administration have enforced the laws of New York. And 
you have had a remarkable success. As a matter of fact, I feel 
safer visiting New York than at any time since I was a young 
man, the last 6 or 8 years. That hasn't happened as a 
consequence of national gun legislation. The truth of the 
matter is that in the last few years we have had some 70 
million new handguns that have been sold and purchased, and yet 
violent crime continues to decrease.
    And so I guess I'm a little bit mystified by some of the 
logic of your argument that in order to save 300 people in New 
York, we have to have some effect from New York City on people 
that sell or engage in lawful behavior outside--and let me 
finish, Mayor, if I can, and I am sure we will give you as much 
time as you need to respond, because I just have some 
respectful differences of opinion.
    One of the things you have said is that you have implied 
that what Congress wants to do is to protect, if we pass the 
5005 legislation--I haven't made up my mind. I don't know that 
I'm a cosponsor, but I certainly haven't made up my mind on 
specific language. I don't think anybody in Congress wants to 
protect the 1 percent bad gun dealers, but that is what you 
suggested, and we can have a difference of opinion about what 
the effect of the bill will be.
    But I don't know whether you were here to hear some of the 
testimony of the last panel. What we heard, among other things, 
is that the number of gun dealers nationally since 1992 has 
gone from roughly 250,000 to less than 50,000. What we also 
heard is that ATF has a zero tolerance policy. No mistakes. 
Even though the language says ``willful noncompliance by 
licensed gun dealers'' is a crime, the tolerance policy is zero 
at ATF.
    So I guess my question is: If you're going to say that you 
don't believe that ATF is policing the 1 percent of bad apples 
and that what you want to do is to have civil liability, you 
want to hold civilly responsible gun dealers that ATF is not 
holding responsible under its very rigid zero tolerance policy, 
then isn't the purpose really--and here is where I get 
concerned, and remember, the entire congressional intent when 
we created the Trace system was not to allow civil litigation 
or cities to crack down and license legal dealers elsewhere. It 
was to solve crimes. And there's nothing in this bill--and if 
we need to clarify the language, I can guarantee you, I will 
support an amendment to say that a police officer anywhere in 
the country, to help solve a crime or help prevent a crime in 
New York can at any time pick up the phone, talk to any one of 
your detectives. You have my assurance on that. I will support 
such an amendment. But here is the problem I have, Mayor, and 
then I would like to invite you to respond, because we 
obviously have a big philosophical difference of opinion.
    For decades in this country, as long as I've been alive, we 
have had a debate about whether or not the second amendment 
actually protects Americans' individual right to bear arms. I'm 
a big believer the second amendment is as important to America 
as the first amendment, freedom of the press. I happen to like 
the 10th amendment, also, by the way, and all the rest of the 
amendments.
    But as a consequence of the political failure of the gun 
grabbers, the anti-gun lobby, to be able to convince Americans 
that we should take away Americans' weapons or their right to 
access to weapons, what they have done is to go after the 
people that manufacture guns. And now our concern is that 
individual jurisdictions will try to affect national policy by 
suing licensed gun dealers that have not committed a crime that 
the ATF finds them responsible for, but some judge in some 
local jurisdiction does.
    And I will leave you with this last thought. You can 
address this hypothesis. The Legislature of South Dakota just 
decided that, whatever the U.S. Supreme Court has said, there 
should be no right to an abortion in South Dakota. If the 
legislature's intent in South Dakota is to protect women and 
unborn children in South Dakota from abortions, should they 
have the right after they pass this legislation to regulate the 
practice of medical doctors in the other 49 States that may 
continue to perform abortions if that occurs? We've got two 
constitutional rights there. One I don't find in the 
Constitution. One I see in the second amendment. And that's the 
problem I have with local jurisdictions impacting the 10th 
amendment rights of the rest of us.
    Mr. Bloomberg. Mr. Feeney, I am not here to argue that the 
right to bear guns should be taken away. I'm not one of those 
gun grabbers. We are here talking simply about going after 
people who knowingly violate the law and sell guns to 
criminals, and the purpose of this bill is to take away the 
information we need to go after them. All law enforcement is 
done with both criminal law and civil law and licensing law. 
They're all tools that anybody that tries to enforce the law 
would use.
    You say that the ATF has done a good job. They did, back in 
2002, they inspected 4.5 percent of all Federal firearms 
licensees, and they found that a whopping 42 percent of those 
inspected had, on average, over 70 violations per store. They 
only attempted to revoke licenses in 30 cases, 1.6 percent of 
those violations. So if we are depending on the Federal 
Government to drive this car, they're asleep at the wheel.
    I don't know that I agree with the analogy with the 
abortion laws in one State. That has nothing to do with what 
goes on in another State. These are guns used in New York that 
are sold in another State and transported into New York City. 
And so it should be up to the Federal Government to do 
something about it, and if they don't, then the law permits 
local jurisdictions to go to court and to try to find 
liability.
    I don't see why anybody should have more protections in the 
case of selling one kind of product than another kind of 
product. Things that are sold commonly, manufacturers and 
dealers have liability if their product is used incorrectly. 
They have labeling requirements or try to mitigate the 
liability through labeling requirements. Nobody suggests that a 
car dealer would sell--should sell a car to a 10-year-old who 
walks in with cash. I would argue that a car dealer that sold a 
car to a 10-year-old with cash probably should be put in jail, 
particularly if that kid goes out with a car, we find the 
money's been stolen, and he drives the car into a school bus 
and kills lots of other people.
    Mr. Feeney. Well, in fairness--and I appreciate your 
testimony, but, by the way, this bill doesn't allow any of 
those sorts of abuses. As a matter of fact, lawsuits against 
gun manufacturers, if their product doesn't function properly, 
all those things are still open----
    Mr. Bloomberg. Those are open things. What we're talking 
about here is the information to find out who is deliberately 
and explicitly violating the law and selling guns to criminals.
    Mr. Coble. The gentleman's time has expired. If you could 
wrap up, Mr. Mayor.
    Mr. Bloomberg. Let me just finish by saying, number one, 
thank you for listening to me. We do have some----
    Mr. Coble. Oh, no, I meant his time has expired.
    Mr. Bloomberg. He's fine. I'd love to stay. Let me finish 
up by simply saying that we're not talking here about ideology. 
We're not talking about the Second rights--the second amendment 
rights. We are talking about withholding information in a world 
where the biggest problem we seem to have is that we are not 
sharing information, whether it's going after terrorists, 
coming from overseas, or going after criminals on our streets, 
whether the information is bottled up. There's a restriction, 
for example, in this legislation that says this data should be 
kept on microfilm. This is the year 2006. To put it on 
microfilm is only designed so that nobody can get at it. How 
can anybody look at their constituents in the eye and explain 
in a day when every kid has a cell phone that is more powerful 
than the biggest IBM computer made 20 years ago and restrict--
come on.
    Mr. Coble. Thank you, Mr. Mayor.
    The Chair recognizes the gentlelady, the distinguished 
gentlelady from New York, Ms. McCarthy. Good to--although not a 
Member of the Judiciary Committee, good to have you with us, 
Ms. McCarthy.
    The Chair is now pleased to recognize the distinguished 
gentleman from New York, Mr. Weiner.
    Mr. Weiner. Mr. Chairman, I think we should pick up 
something that Mr. Feeney said that I think put it very well, 
that with the laws of the city of New York, with good 
enforcement, with a police department second to none, with an 
anti-gun unit that is as vigorous as any in the country, we 
have been able to drive down crime. Why do you need new laws?
    Well, Mr. Feeney, that's exactly the point we're making. 
The point is that now we've got the tools that we need to do--
and I should say, for someone who has opposed the renewing of 
the COPS program, which allowed more police on your streets and 
mine, that's one of the tools we've had that has been taken 
away in recent years. But all we're saying here is we don't 
want additional laws. We just want Congress not to butt in as 
we try to get the last 500 victims to not be victims, to try to 
drive that number down. You're exactly right, and I got to give 
credit--you know, from time to time my friends on your side of 
the aisle are exactly right. We seem to run around sometimes 
looking for new laws to pass, looking for new things to do. And 
sometimes it's just letting the good people in the localities 
and the cities and the States do their job.
    Well, you have someone here who has arguably done it more 
effectively than anyone in recent memory. We've done it, 
sometimes without the help we needed from Washington, but we're 
dealing with that. Now you're coming here and saying we do need 
another law because, whoa, you're getting too good at this. And 
I want to start--I want to ask--make that the jumping off point 
for a question.
    Mr. Bloomberg, tell us, if your police commissioner comes 
to you and said, You know what? We've made arrests and 
convictions, arrests and convictions. But based on our 
intelligence, we know that a particular dealer in a particular 
State on a particular avenue is where a lot of this is coming 
from, we've reported to the ATF, but they only do about 25 
percent--their prosecutions are down 25 percent, you quoted 
2002. I'll give you another number from 2002. There are over 2 
million reported stolen firearms. There were 152 
investigations, never mind prosecutions that year.
    So I would ask you, Mr. Mayor, tell me a little bit about 
what you would do if Commissioner Kelly comes in and says that, 
with all your good work, with all your police officers, with 
all your prosecutors, with all your good intentions, at that 
point are you effectively stymied at that point, or do you have 
to launch an invasion of that State?
    Mr. Bloomberg. The first thing we would do, Mr. Weiner, is 
call our corporation counsel and try to get clarification on a 
law that we read 10 times, and you could read it either way. It 
is very convoluted and complex as to whether or not you have 
the right to share information. But the fact that there is a 
law like this would certainly crimp most law enforcement 
efforts to share information, and they would err on the side of 
not sharing it. And the damage here is that somebody can die, 
that if we could have done something yesterday and stopped an 
unscrupulous gun dealer.
    Let me repeat again: I have no problems with people buying 
guns legally, depending on the State that--the State law. But 
when those guns are then resold into our State and used by 
criminals, we, if we can't get Congress to act, will try to act 
ourselves and avail ourselves of the existing law that lets us 
use civil suits. But we need the information. And it seems to 
me that H.R. 5005 has one purpose and one purpose only, and 
that's to keep us from getting information that law enforcement 
agencies in any other area would have and we would encourage 
them to have, and, in fact, Congress pays for them to obtain. 
This is just trying to protect somebody who is a criminal. It 
doesn't have anything to do with the right to bear arms. It 
doesn't have anything to do with the people who go hunting. It 
doesn't have anything to do with people who buy arms legally to 
protect themselves. It is purely and simply designed to protect 
the bad guys. It's to keep us from having the information.
    And, Mr. Feeney, if you have concerns about how we should 
share the information, I don't have any problems with 
legislation that strikes the right balance between protecting 
the public and allowing the law enforcement officers from the 
great State of Florida or from New York to do their job. If we 
learnt anything from 9/11, it was we are in a common fight 
against those who would take away our rights, including, 
incidentally, the second amendment. We are in a battle to 
protect ourselves from terrorists from overseas and terrorists 
on our streets. And what we can do is to help our law 
enforcement officers, not hurt them and take away information.
    Mr. Weiner. Thank you, Mr. Mayor.
    Thank you, Mr. Chairman.
    Mr. Feeney. Would the gentleman yield before he yield back?
    Mr. Weiner. Certainly.
    Mr. Feeney. Mr. Chairman, we are going to get you some of 
the language from the bill because--and I appreciate that we 
have some differences in approach. But there's nothing in the 
bill that prohibits information sharing between different law 
enforcement officers, and if there is, you have my commitment 
to support an amendment that will do that. What it does do is 
to say that the Trace information that we gather so we can 
track down the real criminals and solve crimes----
    Mr. Weiner. Would the----
    Mr. Feeney. If it's not designed for civil litigation----
    Mr. Weiner. If I can reclaim my time, I would just refer 
the gentleman to page 8, line 18 through 25, and you tell me--
you know, I pride myself as being one of the few non-lawyers on 
the Committee. If you would--if there is some confusion, I 
think there might be, if you would take a look at it. But I 
will say, line 22, ``and only to the extent that the 
information pertains to the geographic jurisdiction of the law 
enforcement agency or prosecutor requesting the disclosure.'' I 
read that to mean if you're interested in someone who's not in 
your geographic subdivision and you're not in your geographic 
jurisdiction--by the way, I don't even known what ``geographic 
jurisdiction'' means. I guess, I mean, the city of New York has 
prosecutions and investigations literally worldwide, but it's 
clear that there's some confusion. And I would welcome the 
gentleman's support in perhaps in Committee striking that whole 
section.
    Mr. Feeney. If you will yield to respond----
    Mr. Weiner. Sure, sure.
    Mr. Feeney. I appreciate that, and, by the way, I'd be 
happy to help clarify the language. But what that refers to is 
the Trace information. To the extent to what the mayor wants is 
a database of all 50,000 gun dealers in the United States that 
some----
    Mr. Weiner. I should think the mayor can expound on what he 
would like. It's the Trace----
    Mr. Feeney. Well----
    Mr. Weiner. If I can reclaim my time for a moment, I'd be 
much more comfortable----
    Mr. Coble. The gentleman----
    Mr. Weiner [continuing]. Letting the mayor say what he----
    Mr. Coble. The gentleman----
    Mr. Feeney. Well, respectfully, the mayor's under the 
opinion that a law enforcement officer in Florida, aware of a 
potential crime that's either occurred or about to occur in New 
York can't talk to him, that's simply not true.
    Mr. Weiner. Okay. Let me--if I can reclaim my time, because 
now----
    Mr. Coble. The gentleman's time has expired, but I will----
    Mr. Weiner. Could I have one more minute?
    Mr. Coble. Will you yield just a moment, Anthony? Will you 
yield?
    Mr. Weiner. Sure, thank you. What's important here----
    Mr. Coble. I want to say a word, if I may.
    Mr. Weiner. Oh, sure.
    Mr. Coble. I don't want to accelerate the mayor's 
departure. I know he has to get to New York. I hope we can wrap 
up pretty soon because we still have Ms. Jackson Lee and Ms. 
Waters just came in, so we have two----
    Mr. Weiner. Sure, but I thank your indulgence for one 
additional minute because this is an important point.
    If using Trace the city of New York is doing an 
investigation, arrests some guy, arrests another guy, arrests 
another guy, and it turns out that there's information they've 
gotten from ATF that says there is a likely candidate for an 
enforcement action in another subdivision, and ATF doesn't 
prosecute, for whatever reason, or it doesn't reach someone's 
desk, or they want to pursue it before the next guy gets shot, 
that, according to this language, sharing that Trace 
information with another agency of Government that's outside of 
New York would be a violation of this statute. And I would 
say--I would also say this: If there's confusion and the law 
enforcement folks think it's going to hinder them, take their 
word for it, Mr. Feeney. They know what they're talking about. 
They do it for a living. If they say so, maybe the best thing 
to do here is to strike the language--I would say to put aside 
the bill in toto. But the last thing you want to do is just 
because you have 100 percent certainty, if law enforcement 
feels they would be hindered, they're the folks we should defer 
to, and you know who says that most around here? Frankly, many 
folks on that side of the aisle say let law enforcement enforce 
the law. I think Mr. Coble and you just said it in your opening 
questions to Mr. Bloomberg, and I yield back.
    Mr. Coble. The gentleman's time has expired.
    The gentlelady from--the distinguished gentlelady from 
Texas, Ms. Jackson Lee, is recognized for 5 minutes.
    Ms. Jackson Lee. I thank the distinguished Chairman. I'm 
delighted and honored to be able to join one of the stronger 
visionaries on gun safety in Carolyn McCarthy from New York, 
and as well, Mr. Mayor, to thank you as well as the other 
witnesses. I'm from Texas, but I wear slightly a different 
perspective than might be expected.
    I frankly believe that H.R. 5005 is, if you will, 
redundant. And I also believe that there is a degree of dumbing 
down the ATF in its collaborative work with local law 
enforcement. We have worked on this Judiciary Committee for a 
number of years that I have served to increase the 
collaboration and cooperation between local and State law 
enforcement and our Federal authorities.
    Let me also reinforce a point that you made. I serve on the 
Homeland Security Committee. You're absolutely right. The 
singular issue after 9/11 that we began to address, even before 
looking at border security and other issues, was the sharing of 
intelligence. I mean, we've spent the longest period of time in 
light of a lot of issues that came to light--the FBI memo, 
which I'm sure you're aware of, the training of individuals to 
take off and not land. So this strikes me--it gives me a 
certain amount of ``befuddleness,'' if you will, and I'll claim 
that word.
    I would like to just go back to some comments that you've 
made, and I'm disappointed that some of the lawsuits that 
cities had undertaken dealing with gun usage was not only 
stopped by the courts in some instances but by legislation. And 
I want to go back to this question dealing with H.R. 5005. I 
view section 7 as the one that eliminates specifically the 
sharing of data between local law enforcement and the Federal.
    Just take, for example, the last, I think, 48 to 72 hours, 
in the tragic shooting in Seattle. The perpetrator, alleged 
perpetrator, was first described, we don't know why, it's a 
perfectly genteel individual, yet to discover that, well, the 
individual was well armed but also had a number of other gun 
equipment.
    The question is--we don't know what the investigation will 
find, but the question is: In that kind of tragic episode that 
may happen in any American city, wouldn't it have been--or 
would it be certainly more valuable--and this is in what we 
think is a standard crime, tragic crime situation--where 
information could be shared as to whether those guns had been 
used in other criminal circumstances, whether or not they were 
sold inappropriately, whether or not there was evidence of a 
person who sold them who violated the law? Would you share with 
me, even on the basis of simple crime solutions that happens in 
every major city, how a bill like this that dumbs down the ATF 
data system where it cannot be shared really undermines your 
commissioner's work, undermines your local--I shouldn't say 
your local, but your police officers on the street who we're 
trying to protect, and simply puts a large divide between what 
should be a unified scene of law enforcement and the sharing of 
intelligence?
    Mr. Bloomberg. Ms. Jackson Lee, I cannot understand why 
this bill is before this Subcommittee. You would think that 
those who want to have the right to bear arms would do 
everything they could to keep the bad guys, if you will, from 
having guns. I don't know where any investigation goes. We 
never know what's going to happen in this tragic case that you 
referred to, or anyplace else. In this country, we have a 
number of rights. One is the right to bear arms. Another is a 
restriction on how Government can use information, and I think 
most of those restrictions are well founded. They have been 
tested in the courts. There's a lot of history behind them.
    What this law would do is for one kind of product, go and 
remove the ability for law enforcement officers to do their 
jobs even under the protection of the civil rights that we all 
hold so dear. And the only beneficiary of this bill are the bad 
guys. It does not help gun manufacturers. Most of them are very 
responsible. It does not help gun dealers. Most of them are 
very responsible. It doesn't help people who buy guns legally 
and use them responsibly. It just helps one group--the bad 
guys. We have a law says they shouldn't have guns, and yet 
here's ways that you're taking away from the police 
department's ability to find out who is violating the law.
    Ms. Jackson Lee. Plain and simple--and might I just add 
these two points, and I'd appreciate your brief comment on it, 
because, again, it gives me great consternation and heightens 
the level of confusion. To limit ATF from gun tracing data and 
to limit it from using--or at least allowing this gun tracing 
data or the data that they might come about and potential civil 
action, which from my perspective the judiciary system or any 
legal system is for petitioners and defendants--or plaintiffs 
and defendants, rather, or prosecutors and defendants, to go 
before the court, and someone prevails. And so eliminating 
information to be given to either side, to be adjudged by 
either a hopefully independent jury or a jury of one's peers 
and/or a judge seems to me to put a major dent in any judicial 
system that we would claim to have. Why eliminate information?
    Mr. Coble. The gentlelady's time has expired, but you may 
respond, Mr. Mayor.
    Mr. Bloomberg. Ms. Jackson Lee, before you came in, I 
talked about the difference between criminal law and civil law 
and licensing law. The truth of the matter is law enforcement 
officers and the governments use all three all the time. We use 
building codes to close down bars that may sell alcohol to 
children or houses of prostitution or places where they sell 
stolen goods. We use civil suits to make this city, our city, 
the city of Washington, safer all the time. The distinction is 
this is not a bunch of ambulance-chasing lawyers going out and 
looking for a case to make a few bucks. This is the Government 
that's sworn to protect all of us using information to catch a 
handful of people who go out and kill other human beings.
    And, Mr. Feeney, one of the things you had said is we have 
done a good job at bringing down crime in New York City, but 
it's not just going after demand. It's going after the supply 
as well. Why not do both? And you do both simultaneously. And I 
think that there's plenty of protections for the public. In the 
past, I don't know of any kind of tracking data like this that 
was used inappropriately. All of a sudden, however, there's a 
law that was in the past put through as part of an 
appropriations bill, so it never really--Congress never really 
had to stand up and say yea or nay. This is the first time, I 
think, that Congress has to do that.
    But it seems to me, plain and simple, you've got to answer 
to your constituents. Who are you trying to protect and why in 
this day and age, given everything that we've learnt from 9/11, 
everything that's going on in this world, we want to tie the 
hands of law enforcement officers? You may feel that there 
should be some added protections for the public in terms of how 
the information is used, and if there are abuses, fine.
    Ms. Jackson Lee. Absolutely.
    Mr. Bloomberg. I have the same interest in my personal 
rights as anybody else. But I don't think that you can make a 
rational case that deliberately keeping information of who is 
selling tens, hundreds of guns that they know are going to go 
out on the streets and be sold to criminals, that keeping that 
information from law enforcement makes----
    Ms. Jackson Lee. Mr. Chairman, I have just one sentence. 
What the mayor has enunciated I believe represents fatal flaws 
in legislation that I don't think can be cured or 
rehabilitated. And I'd just cite to my colleagues, though it is 
not a gun issue, but some decades ago when we took on 
Volkswagen to be helpful, we drive Volkswagens today that are 
safe. And that was a civil suit based upon information that had 
been garnered. Slightly different set of facts, but a good 
turned out. Why not allow facts to go to local governments so 
that good can come out of it for those they serve and for this 
Nation. This legislation is fatally flawed, and, again, I hope 
we'll find a way to detour it away from consideration.
    I yield back.
    Mr. Coble. The gentlelady's time has expired.
    The Chair has been very lenient on time because this is a 
very significant issue, and, Ms. Stucko and Mr. Gardiner, if 
you all want to weigh in before we adjourn, I will let you do 
that. But meanwhile I want to recognize the distinguished 
gentlelady from California, Ms. Waters.
    Ms. Waters. Thank you very much, Mr. Chairman and Members. 
Allow me to take a moment to thank Mr. Bloomberg, the mayor, 
for being here today. I want to commend you not only because of 
your position on this issue, on the issue of gun laws, but for 
your courage in coming here. This bill is being advanced by a 
Member of your party, and oftentimes it is difficult, even when 
you know something is wrong, to look them in the eye and tell 
them, and you are here doing that today, and I commend you for 
that. As a matter of fact, I like people with courage.
    Let me just say that I'm from Los Angeles, and I have a 
very diverse district. But one section of that district where 
we have a concentration of public housing developments and a 
concentration of poor people and gangs is a very troubling part 
of my district. In about a month's period of time, I think 
starting about December 23rd, there were 12 people killed in 
what has been described as gang warfare. And what's very 
interesting about what has taken place is the guns that they're 
using are more sophisticated, they have more fire power, and 
they're not killing just one person, they're killing several 
persons in a single round of shooting.
    Now, we're all asking: Where are these guns coming from? 
How are these young people getting access to these guns? Can't 
we trace them? Can't we find out what is going on?
    The NRA and maybe the gun dealers who support this bill can 
say whatever they want about constitutional rights. The 
Constitution never envisioned that sophisticated weaponry would 
be on the streets of America with people getting killed day in 
and day out all over this country.
    Aside from the gangs and the criminals who have access to 
these guns, I would think that every Member of Congress would 
be concerned about terrorism. The President has made this his 
number one priority. We talk a good game up here about 
terrorism. We have an alert system with yellow and orange and 
red and all of that. But that does not really do very much to 
protect us from the potential for terrorists right here in our 
own country having access to the kind of weapons that could 
wipe out a whole bunch of people at a theater, in a 
supermarket, you name it.
    And I want to tell you, each morning that I wake up, I wake 
up wondering whether or not some of what I'm hearing about what 
is going on in Iraq is not going to occur here in the United 
States, and how we could do something like the section 7, the 
elimination of duplicative, multiple sales report requirements, 
is unconscionable. To say that someone can walk in and purchase 
maybe ten guns or more and there would be a report maybe that 
goes to ATF but not to the State and locals and the ATF does 
not have a responsibility to report it to the State and locals 
is just beyond me, my comprehension. I don't understand why we 
would be doing something like this, and I think you raised the 
question why. Why do we have this bill in this Subcommittee 
before the Congress of the United States? Who are we trying to 
protect and why? And for anybody to say we're not trying to 
protect the criminals, I don't know how they would explain it.
    I'm sick and tired of the sloganeering and the stupid 
slogans--``Guns don't kill people, people kill people.'' Well, 
I want to tell you who's killing folks. This kind of public 
policy is what can help get a lot more people killed and our 
inability to find out where these guns are coming from and how 
they're being sold.
    So you give me an opportunity with this platform today to 
say how deeply concerned I am about what is going on not only 
in my own district and with young people and with gang members, 
but what's going on across this Nation.
    I thank you for being here, and I hope that no matter what 
kind of criticism you may get from inside your party, that you 
continue to do this kind of work and show up at times when it's 
not popular to show up. And I don't need a response.
    Thank you very much.
    Mr. Coble. Ms. Waters, you beat the red light. I commend 
you for that.
    Your Honor, I think we're about to excuse you, but I want 
to give Ms. Stucko and Mr. Gardiner a chance to make a 
statement----
    Mr. Bloomberg. Can I just say something about Ms. Waters' 
comments?
    Mr. Coble. Sure.
    Mr. Bloomberg. I don't view this as a partisan issue.
    Ms. Waters. It shouldn't be.
    Mr. Bloomberg. I'm not a particularly partisan person, as 
many people know, but I--and I don't view this as the NRA 
versus the rest of the world. This is not about the right to 
bear guns. This is not a philosophical issue. This is plain and 
simple: You've got criminals out there and we're not going 
after them, and I fail to understand how anybody can argue that 
we shouldn't have this information. It does not restrict 
anybody from legally buying a gun anyplace or doing anything 
that is legal. And it seems to me that it is in the NRA's 
interest long term to do everything they can to make sure that 
guns are used responsibly, because whether the politics worked 
today or the politics work tomorrow, eventually the public is 
going to say enough is enough. And I had the mayor of Los 
Angeles, Mayor Villaraigosa, in the city recently, about 2 
weeks ago, and we had dinner together and talked about crime, 
and we both have similar problems, and education. This is not 
something that's East Coast/West Coast, Republican/Democrat, 
rich/poor. Everybody is a victim of criminals, and all we're 
saying is don't take away the information that we need to catch 
the criminals. And I think that those that really care about 
the second amendment should not want this bill to become law.
    Mr. Coble. Mr. Mayor, since Mr. Gardiner and Ms. Stucko 
have been very generous with their time, do either of you have 
anything to say prior to the mayor's departure?
    Mr. Gardiner. Are we going to have a chance to make----
    Mr. Coble. Your mike is not hot, Mr. Gardiner.
    Mr. Gardiner. Are we going to have a chance to make 
statements afterward or is this the only--is this going to be 
the only----
    Mr. Coble. This will be it. Well, now, the record will be 
kept open for 7 days. If you want to communicate with us in 
writing, that will be in order.
    Mr. Gardiner. I would like to make a couple of comments, 
and please----
    Mr. Coble. Oh, I stand corrected. Sure, you may indeed make 
them right now.
    Mr. Weiner. Mr. Chairman, can--the mayor has to run back, 
but I just want to thank him on behalf of the Committee.
    Mr. Coble. Ms. Stucko, did you or Mr. Gardiner want your 
words to be received by the mayor necessarily?
    Mr. Gardiner. I would like to make a couple of comments if 
the mayor could hold on for a couple minutes.
    Mr. Coble. Mr. Mayor, could you accommodate us to that end?
    Mr. Bloomberg. I think this is important enough. I'd be 
happy to----
    Mr. Coble. Folks, we're departing all around from the rules 
of order here, but I think we'll be forgiven. Go ahead, Mr. 
Gardiner.
    Mr. Bloomberg. I'd just like to say thank you--thank you, 
Mr. Gardiner and Ms. Stucko, for your patience, and I 
apologize.
    Mr. Gardiner. I have prepared testimony, which has been in 
the record, but I want to comment on several things the mayor 
has said. First of all, he suggests that this bill would 
somehow impair the ability to bring lawsuits against dealers 
who knowingly sell firearms to criminals. That's absolutely 
untrue. There's nothing in this bill which would in any way 
prevent suits against dealers who knowingly sell firearms to 
criminals. If there are dealers who are doing that, those kind 
of lawsuits can be brought now. There's nothing that prevents 
that.
    What the mayor is talking about here is the data from the 
National Trace System, the database that ATF maintains, and 
it's important to understand why what the mayor is saying about 
this bill simply is not true, because you have to understand 
what that database is. It is a list of guns which have been 
traced. That's all it is. And as the Congressional Research 
Service said in a study at least a decade ago, all traced 
firearms are not crime guns, and all crime guns aren't traced. 
Indeed, the vast majority of guns which are traced are not 
crime guns, and probably the vast majority of crime guns aren't 
traced. You have a database that essentially all it's doing is 
indicating how many times law enforcement agents have called 
ATF and said, ``Who--where did this gun go after it was 
manufactured?'' That's all the Trace database is. It is not in 
the slightest way indicative of whether a particular dealer is 
selling guns to criminals. And so eliminating the ability of 
ATF to release the Trace database is not in any way going to 
impact on the ability to bring suits against dealers.
    Now, I wanted to also respond, if I could, to Mr. Scott's 
question about Virginia and the one-gun-a-month provision. 
That--this database has absolutely nothing whatever to do with 
the enforcement of the one-handgun-in-30-day-period. That is a 
database that is maintained by the Virginia State Police 
because we have a statewide instance check. I have personally--
--
    Mr. Scott. Doesn't the bill prohibit the dual reporting and 
that's why the Virginia----
    Mr. Gardiner. It does. It has absolutely no effect, and the 
reason is that in Virginia we have this statewide instant 
check. In fact, Virginia was the first State to create that. 
And the way the State Police determined whether a second 
handgun has been sold within the 30 days is based on the State 
instance check system. It has nothing whatever to do with these 
multiple-purchase forms. The State has its own computer system, 
and when a dealer makes a transfer of a handgun, he has to call 
in and get permission, get a clearance for the individual 
buyer. And when that check is done, when the criminal history 
check is done, they also do a check to determine if the person 
has bought a second handgun within 30 days, and I know that's 
how it's done because I've represented a number of individuals 
who've been prosecuted, and I've cross-examined the State 
Police who've been involved in the cases. So this bill would 
have no effect whatever on that issue.
    With regard to the--specifically with regard to section 7 
and providing information, multiple-purchase information to the 
State police and local police, the problem is that part of what 
Congress said was that the data were to be destroyed after--I 
believe it was 20 days, and the police were then to provide 
certifications to the Department of Justice that they had 
destroyed those documents pursuant to Federal law.
    I have done a Federal--a Freedom of Information Act request 
to get copies of those certifications. I believe in the course 
of the last 10 or 12 years since this was done, even though 
there have been thousands and thousands and thousands of 
multiple-purchase forms filed, there were probably four or five 
certifications from the entire United States in that file. The 
local and State law enforcement have simply--I guess a better--
no better way to put it is that they violated Federal law 
because they have not provided these certifications. And that's 
part of the reason why the information is not--should not be 
provided, because they apparently have not complied with their 
requirements.
    Mr. Weiner. Maybe they should file it on microfiche.
    Mr. Gardiner. Then maybe they'd destroy it? Is that the----
    Mr. Weiner. Then none of us would ever know.
    Mr. Gardiner. Paper is easy to destroy. These are forms 
that are about----
    Mr. Weiner. I know. I'm joking, Mr. Gardiner.
    Mr. Coble. Are you finished, Mr. Gardiner?
    Mr. Gardiner. Those are the specific comments that I wanted 
to make.
    Mr. Coble. I thank you for that.
    Ms. Stucko?
    Ms. Stucko. We have not had a chance to thoroughly analyze 
the bill, but we would like to enter comments for the record.
    Mr. Coble. Well, the record will remain open for 7 days, 
and I want to thank you the Members of the Subcommittee for 
their attendance.
    Mr. Mayor, good to have you down here in the Nation's 
capital. Have a safe trip back.
    Mr. Bloomberg. Thank you.
    Mr. Coble. This concludes the hearing. In order to ensure a 
full record and adequate consideration of this important issue, 
the record will be left open for additional submissions for 7 
days. Also, any written questions a Member wants to submit 
should be submitted within the 7-day period.
    This concludes the legislative hearing on H.R. 5005, the 
``Firearms Corrections and Improvements Act.'' Thank you for 
your cooperation. The Subcommittee stands adjourned. Thank you.
    [Whereupon, at 4:03 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of Richard E. Gardiner, Attorney at Law, Fairfax, 
                                Virginia

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  Prepared Statement of Audrey Stucko

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Prepared Statement by the Honorable Robert C. Scott, a Representative 
      in Congress from the State of Virginia, and Ranking Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Thank you, Mr. Chairman. I am pleased to join in convening this 
legislative hearing on H.R. 5005, the ``Firearms Corrections and 
Improvement Act.'' While some of the provisions of this bill are non-
controversial, others are clearly controversial, as we will hear from 
our witnesses today. I am concerned with certain of the provisions, in 
particular, such as the provision eliminating the requirement for ATF 
to report multiple sales to state and local governments. Virginia, as 
other jurisdictions, has a one- gun-a-month restriction, and this 
information is clearly necessary to its enforcement purposes. So, I 
will certainly want to know how the proposed legislative restriction 
relates to this purpose. I am also concerned with access to gun tracing 
and other information restricted by this legislation. I see no reason 
why we should shield individuals or companies from responsibility for 
the results of their negligent acts, including those convicted of 
crimes directly related to the injuries or deaths that are the subject 
of negligence claims.
    So, Mr. Chairman, I look forward to the testimony of our witnesses 
on the impact the legislation and to working with you to avoid undue 
restrictions on the abilities of our states and localities to 
effectively enforce their laws, and on the ability of injured parties 
to recover from negligent acts individuals or companies in the use of 
firearms. Thank you.

                               __________

       Prepared Statement by the Honorable Sheila Jackson Lee, a 
           Representative in Congress from the State of Texas

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

Letter from Antonio Villaraigosa, Mayor of the City of Los Angeles, to 
      the Honorable Howard Coble and the Honorable Robert C. Scott

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Letter from Richard Daley, Mayor of the City of Chicago, to the 
                         Honorable Howard Coble

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Letter from Richard Daley, Mayor of the City of Chicago, to the 
                       Honorable Robert C. Scott

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Letter from Thomas Menino, Mayor of the City of Boston, to the 
        Honorable Howard Coble and the Honorable Robert C. Scott

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Letter from Tom Barrett, Mayor of the City of Milwaukee, to the 
   Honorable F. James Sensenbrenner, Jr., Chairman, Committee on the 
    Judiciary, and the Honorable John Conyers, Jr., Ranking Member, 
                       Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

   Letter from Gregory Nickels, Mayor of the City of Seattle, to the 
                 Honorable F. James Sensenbrenner, Jr.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

   Letter from Gregory Nickels, Mayor of the City of Seattle, to the 
                      Honorable John Conyers, Jr.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

     Letter from the Fair Trade Group to the Honorable Howard Coble

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

Letter from the National Firearms Act Trade & Collectors Association to 
                       the Honorable Howard Coble

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

 Letter from the Brady Center to Prevent Gun Violence to the Honorable 
             Howard Coble and the Honorable Robert C. Scott

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

   Letter from Crime Gun Solutions LLC to the Honorable Lamar Smith, 
Chairman of the Subcommittee on Courts, the Internet, and Intellectual 
                                Property

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               __________

       Declaration of Service via JusticeLink In re Firearm Case

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

 Declaration of Robert A. Rickler in support of plaintiffs' opposition 
  to defendant manufacturers' motion for summary judgement in Firearm 
                                  Case

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
